TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Actions Are Needed to Accurately Reflect
                    Criminal Investigation’s Fraud Referral
                      Evaluation Period and Improve the
                        Criminal Fraud Referral Process



                                           May 24, 2013

                              Reference Number: 2013-30-051




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information
 2(e) = Law Enforcement Procedure



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


ACTIONS ARE NEEDED TO                                referrals is questionable. CI management did
ACCURATELY REFLECT CRIMINAL                          not have complete or accurate information
INVESTIGATION’S FRAUD REFERRAL                       available to make decisions because CI used
EVALUATION PERIOD AND IMPROVE                        incorrect and/or inappropriate data when
                                                     analyzing its timeliness performance measures.
THE CRIMINAL FRAUD REFERRAL
                                                     In addition, management did not establish goals
PROCESS                                              for CI’s timeliness measures. Furthermore, CI
                                                     employees did not always ensure that criminal

Highlights                                           investigations were timely controlled on the
                                                     Master File.
Final Report issued on May 24, 2013                  WHAT TIGTA RECOMMENDED
                                                     TIGTA recommended that the IRS 1) stress the
Highlights of Reference Number: 2013-30-051
                                                     importance of capturing correct fraud referral
to the Internal Revenue Service Chief, Criminal
                                                     processing data, 2) modify the management
Investigation.
                                                     information system or develop an alternative
IMPACT ON TAXPAYERS                                  method to accurately calculate the fraud referral
                                                     evaluation period, 3) establish goals for the
Tax fraud is a deliberate and purposeful violation   fraud referral timeliness performance measures,
of Internal Revenue laws by those who do not         4) strengthen procedures to ensure that the
file and properly report their income and            criminal investigation code is timely input, and
expenses. When criminal fraud is not timely          5) issue a reminder to periodically review reports
pursued, it can undermine the IRS’s deterrence       to ensure that the code is input timely.
efforts. In addition, breakdowns in fraud
investigation procedures can result in contact       In its response to the report, IRS management
with the taxpayers that may potentially              agreed with four of the five recommendations
jeopardize Criminal Investigation’s (CI) ongoing     and has taken or plans to take corrective
investigations.                                      actions. IRS management partially agreed with
                                                     Recommendation 3. Although IRS management
WHY TIGTA DID THE AUDIT                              did not agree to set a percentage goal for the
                                                     performance measure, their commitment to the
Tax fraud is one of the most egregious forms of
                                                     policy of addressing each fraud referral within
noncompliance. The overall objective of this
                                                     the specified time frame is acceptable and will
review was to evaluate CI’s role in the IRS
                                                     help to ensure that fraud referrals are
National Fraud Program’s efforts to increase the
                                                     expeditiously reviewed.
number of viable fraud referrals. This audit is
included in TIGTA’s Fiscal Year 2013 Annual
Audit Plan and addresses the major
management challenge of Tax Compliance
Initiatives.
WHAT TIGTA FOUND
Fraud referrals made to CI in Fiscal Year 2012
have increased. This has subsequently resulted
in an increase in the number of subject criminal
investigations and prosecution
recommendations. In addition, CI special
agents provided thorough written feedback to
the referring operating divisions when they
rejected the referrals.
However, the reliability of data CI used to
determine the timeliness of evaluating fraud
                                           DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            May 24, 2013


 MEMORANDUM FOR CHIEF, CRIMINAL INVESTIGATION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Actions Are Needed to Accurately Reflect
                             Criminal Investigation’s Fraud Referral Evaluation Period and Improve
                             the Criminal Fraud Referral Process (Audit # 201130040)

 This report presents the results of our review to evaluate Criminal Investigation’s (CI) role in the
 Internal Revenue Service (IRS) National Fraud Program’s efforts to increase the number of
 viable fraud referrals. In addition, we determined whether fraud referrals were timely assessed
 within CI and whether sufficient feedback was provided to the operating divisions on rejected
 fraud referrals. This review was conducted as part of our Fiscal Year 2013 Annual Audit Plan
 and addresses the major management challenge of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Augusta R. Cook, Acting
 Assistant Inspector General for Audit (Compliance and Enforcement Operations).
                                   Actions Are Needed to Accurately Reflect
                            Criminal Investigation’s Fraud Referral Evaluation Period
                                and Improve the Criminal Fraud Referral Process




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          Criminal Investigations Initiated From Fraud Referrals
          Have Increased Over the Past Year .............................................................. Page 5
          Data Reliability and System Limitations Restrict
          Criminal Investigation’s Ability to Accurately Measure
          Fraud Referral Evaluation Timeliness .......................................................... Page 8
                    Recommendation 1:........................................................ Page 11

                    Recommendations 2 and 3: .............................................. Page 12

          Improvements Are Needed to Prevent the Potential
          Compromise of Criminal Investigations ....................................................... Page 13
                    Recommendations 4 and 5: .............................................. Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 16
          Appendix II – Major Contributors to This Report ........................................ Page 18
          Appendix III – Report Distribution List ....................................................... Page 19
          Appendix IV – Outcome Measures............................................................... Page 20
          Appendix V – Glossary of Terms ................................................................. Page 23
          Appendix VI – Management’s Response to the Draft Report ...................... Page 25
               Actions Are Needed to Accurately Reflect
        Criminal Investigation’s Fraud Referral Evaluation Period
            and Improve the Criminal Fraud Referral Process




                     Abbreviations

CI             Criminal Investigation
CIMIS          Criminal Investigation Management Information System
IRM            Internal Revenue Manual
IRS            Internal Revenue Service
TC             Transaction Code
                                Actions Are Needed to Accurately Reflect
                         Criminal Investigation’s Fraud Referral Evaluation Period
                             and Improve the Criminal Fraud Referral Process




                                               Background

Tax fraud is a deliberate and purposeful violation of Internal Revenue laws by those who do not
file and properly report their income and expenses. Tax fraud requires both an underpayment
and fraudulent intent. It is one of the most egregious forms of noncompliance.
Criminal Investigation’s (CI) primary mission is to investigate potential criminal violations of
the Internal Revenue Code1 and related financial crimes in a manner that fosters confidence in
the tax system and compliance with the law. The CI Fiscal Year 2012 Annual Business Plan
includes a recurring commitment that focuses on the delivery of high-impact, high-quality tax
fraud investigations by working closely with the other Internal Revenue Service (IRS) operating
divisions. The compliance, business, and communication strategies of CI include maintaining
focus on legal source income tax investigations and partnering with the other operating divisions
to support a successful Fraud Referral Program.2
The primary objective of the IRS National Fraud Program is to foster voluntary compliance with
Federal tax laws through the recommendation of criminal prosecution and/or civil penalties
against taxpayers who attempt to evade the assessment
and/or payment of taxes due. The IRS National Fraud            The primary objective of the
Program Office provides oversight and direction for fraud      National Fraud Program is to
referrals throughout the IRS. The Program Office is part       foster voluntary compliance
of the IRS’s Fraud/Bank Secrecy Act Office within the         with Federal tax laws through
Small Business/Self-Employed Division.                       the recommendation   of criminal
                                                                              prosecution and civil penalties
Oversight of the fraud program includes providing               against taxpayers who attempt
training to the various operating divisions and assisting in      to evade the assessment or
                                                                     payment of taxes due.
the development of fraud referral leads. The Program
Office staff has the primary role of coordinating fraud
referrals from the operating divisions to CI, monitoring program accomplishments and trends,
resolving IRS-wide fraud issues, and improving policies and procedures related to the detection
and deterrence of fraud. National Fraud Program Office Fraud Technical Advisors (hereafter
referred to as advisors) are responsible for providing procedural fraud advice to operating
division compliance employees, as well as helping to identify and develop potential criminal
fraud referrals and civil fraud penalty cases.


1
  See Appendix V for a glossary of terms.
2
  Legal source investigative cases are part of the core mission of CI and contribute to its efforts to support the IRS’s
overall compliance goals and enhance voluntary compliance with the tax laws to reduce the Tax Gap. The Fraud
Referral Program is a key source of high-income tax fraud investigations and an important source of legal source
income tax investigations.
                                                                                                                Page 1
                                 Actions Are Needed to Accurately Reflect
                          Criminal Investigation’s Fraud Referral Evaluation Period
                              and Improve the Criminal Fraud Referral Process



The Internal Revenue Manual (IRM)3 requires that a fraud referral be developed in the operating
division when an advisor determines that a case includes firm indications of fraud and
established criminal criteria are met. Although not all inclusive, examples of fraudulent criminal
activities committed by individuals, businesses, and/or tax return preparers that are considered
violations of the tax law include:
          Deliberately underreporting or omitting income.
          Overstating the amount of deductions.
          Keeping two sets of books.
          Claiming personal expenses as business expenses.
          Claiming false deductions.
          Hiding or transferring assets or income.
The fraud referral is submitted to the respective CI field office using Form 2797, Referral Report
of Potential Criminal Fraud Cases. CI procedures require that the date the fraud referral is
received by the CI field office be noted on the Form 2797 and entered in the initiation date field
in the Criminal Investigation Management Information System (CIMIS). The fraud referral is
then assigned to a special agent, who should schedule an initial conference with the referring
compliance employee and the advisor within 10 workdays to discuss the fraud referral’s merits.
After this initial meeting and upon further research, CI must then make a decision whether to
accept or reject the fraud referral, i.e., the disposition of the referral, within a total of
30 workdays from the fraud referral’s receipt.
Sometimes, CI will not pursue a criminal investigation based on the fraud referral. Reasons for
rejecting fraud referrals include:
          Insufficient evidence.
          Lack of jury appeal.
          Lack of willful intent by the taxpayer.
          The taxes owed are not cost effective to pursue a criminal investigation.
If the fraud referral is rejected, the date the rejection decision was made is entered in the
disposition date field on the Form 2797 and in the closed status date field in the CIMIS. The
special agent writes a declination memorandum, which is provided to the referring operating
division’s advisor and compliance employee, detailing the reasons the fraud referral was



3
    IRM 25.1.3.2 (Oct. 30, 2009).
                                                                                           Page 2
                             Actions Are Needed to Accurately Reflect
                      Criminal Investigation’s Fraud Referral Evaluation Period
                          and Improve the Criminal Fraud Referral Process



rejected. Compliance employees in the referring operating division are then to resume normal
case processing with consideration given to the application of a civil fraud penalty.
If CI determines that there are sufficient tax issues to accept the fraud referral and upgrade it to a
Subject Criminal Investigation, the date this decision is made is to be entered on the Form 2797
in the disposition date field. The CIMIS is then to be updated to reflect the acceptance of the
fraud referral and the start of the Subject Criminal Investigation.
Figure 1 provides an overview of the fraud referral process from the identification of fraud
indicators by compliance employees in the operating divisions through the evaluation of whether
the fraud referral is accepted or declined as an investigative case in CI.
                          Figure 1: Criminal Fraud Referral Process




Source: Treasury Inspector General for Tax Administration analysis of IRM 25.1.3.

This review was performed at CI Headquarters in Washington, D.C., and the Small Business/
Self-Employed Division National Fraud Program Office in New York, New York, during the
period December 2011 through September 2012. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
                                                                                               Page 3
                           Actions Are Needed to Accurately Reflect
                    Criminal Investigation’s Fraud Referral Evaluation Period
                        and Improve the Criminal Fraud Referral Process



we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                           Page 4
                           Actions Are Needed to Accurately Reflect
                    Criminal Investigation’s Fraud Referral Evaluation Period
                        and Improve the Criminal Fraud Referral Process




                               Results of Review

Criminal Investigations Initiated From Fraud Referrals Have Increased
Over the Past Year
Fraud referrals made to CI in Fiscal Year 2012 resulted in notable contributions to tax
administration. With continuing emphasis on the Fraud Referral Program as one of the key
sources of high-impact tax fraud cases, the number of fraud referrals increased more than
7 percent from Fiscal Years 2011 to 2012, and the number of accepted referrals increased by
nearly 5 percent. Other notable results included:
      Subject Criminal Investigations increased by 7.1 percent.
      Prosecution recommendations increased by 3.9 percent.
      Convictions increased by 11.8 percent.
      The average number of months to serve per conviction increased by 16.7 percent.
CI’s Fiscal Year 2012 Annual Business Plan continued to stress the importance of delivering
high-impact investigations by working closely with the other IRS operating divisions to address
significant cases of tax fraud abuse. Figure 2 shows CI’s Business Performance Review data for
the fraud referral inventory and results for Fiscal Years 2011 and 2012.




                                                                                         Page 5
                               Actions Are Needed to Accurately Reflect
                        Criminal Investigation’s Fraud Referral Evaluation Period
                            and Improve the Criminal Fraud Referral Process



               Figure 2: IRS-Wide Fraud Referrals to Criminal Investigation

                                                                  Fiscal       Fiscal          % Change
                                                                   Year         Year           Fiscal Year
                 Comparisons Fiscal Year End                      2011         2012           2011 to 2012

    Fraud Referrals Received During Fiscal Year                     549          589               7.3%
    Fraud Referrals Pending Evaluation                              96           100               4.2%
    Accepted (1st Subject Criminal Investigation
                                                                    381          399               4.7%
    Numbered)
    Rejected (Closed With No Subject Criminal
                                                                    177          199              12.4%
    Investigation)
                   4
    Acceptance Rate (Accepted/[Accepted +
                                                                  68.3%        66.7%              -1.6%
    Rejected])
    Performance Results From Fraud Referrals
       Subject Criminal Investigation Initiated                     452          484               7.1%
       Prosecution Recommendations                                  256          266               3.9%
                          4
       Prosecution Rate                                           58.1%        60.7%               2.6%
                                                  4
       Department of Justice Acceptance Rate                      92.6%        91.6%              -1.0%
                                                   4
       United States Attorney Acceptance Rate                     84.9%        90.7%               5.8%
       Convictions                                                  211          236              11.8%
       Sentenced                                                    222          222               0.0%
                              4
       Incarceration Rate                                         83.3%        81.1%              -2.2%
       Average Number of Months to Serve Per
                                                                    24           28               16.7%
       Conviction
    Source: IRS CI Business Performance Reviews dated September 30, 2012.

CI management attributed the increase in the number of fraud referrals received to CI’s outreach
efforts with other IRS operating divisions, biannual compliance council meetings, and assistance
in advisor training development and delivery. For example, CI field office special agents
provide outreach presentations to groups within a geographic Territory. In general, these
presentations consist of general information about the indictors of fraud and CI’s role in the
fraud referral process. Additionally, CI management stated that CI partners with the local
operating divisions by holding Compliance Counsel Meetings at least semiannually to obtain
input on the training and presentations that the operating divisions would like CI to provide.


4
  For this item, the percentage figures shown in the “percentage change” column are the difference in the percentage
from one year to the next, not the percentage change from one year to the next.
                                                                                                            Page 6
                                Actions Are Needed to Accurately Reflect
                         Criminal Investigation’s Fraud Referral Evaluation Period
                             and Improve the Criminal Fraud Referral Process



The National Fraud Program Office has approximately 80 advisors who also provide fraud
awareness presentations to IRS compliance employees in the various operating divisions. The
presentations include topics such as interviewing skills and various techniques to examine tax
returns and identify possible indicators of fraud. The Program Office provided fraud outreach
presentations and training to more than 17,000 compliance employees in Fiscal Year 2011 and to
almost 16,000 compliance employees in Fiscal Year 2012.
To determine the types of fraud issues that were referred to CI, we selected and reviewed a
stratified random sample of 127 (86 accepted and 415 rejected fraud referrals) of the 1,583 fraud
referrals made during Fiscal Years 2009 through 2011. Our analysis showed that the Small
Business/Self-Employed Division initiated the vast majority of fraud referrals to CI and that
most were related to individual tax returns, which indicates that these taxpayers are either fully
or partially self-employed or small business owners. The fraud referrals in our sample generally
included multiple suspected fraudulent issues, most commonly involving: 1) omitted income,
2) failure to file or pay tax, or 3) evasion of payment.

When fraud referrals were not accepted, CI provided thorough feedback
While a majority of fraud referrals were accepted and worked, CI did not pursue all fraud
referrals with a criminal investigation. When CI did not accept a fraud referral for criminal
investigation, CI special agents provided thorough feedback to the operating divisions to support
why the fraud referrals were not accepted.
The IRM6 requires that CI issue a declination memorandum to the referring operating division’s
advisor explaining the reason(s) why a fraud referral was rejected. To determine whether CI was
providing the required feedback to the referring operating division’s advisor regarding rejected
referrals, we reviewed the declination memorandums for the rejected fraud referrals in our
sample. In all instances, CI special agents provided thorough feedback to the operating divisions
to support why the fraud referrals were not accepted. Some examples of the specific feedback
given to the operating divisions included:
         ****************************************1************************************************************
         *****************************************1************************************************************
         *****************************************1**************************************************************
         ******************************************1************************************************************
         ***************************************1***********************************.
         *******************************************************1**************************************************
         ***********************************************1************************************.



5
  One fraud referral was incorrectly coded as rejected when it was actually accepted. Following recognized
statistical practices, the one incorrectly coded fraud referral was left in the strata where it was originally placed,
which increased the rejected fraud referrals to 41.
6
  IRM 25.1.3.5 (Oct. 30, 2009).
                                                                                                                   Page 7
                               Actions Are Needed to Accurately Reflect
                        Criminal Investigation’s Fraud Referral Evaluation Period
                            and Improve the Criminal Fraud Referral Process



In addition, in 28 of the 41 declination memorandums in our sample, CI specifically stated or
indicated that civil actions could be considered. For example, several declination memorandums
contained the specific wording “nothing was discovered during our review which would preclude
the assertion of civil fraud penalties.” Providing the referring compliance employees with
adequate feedback will help foster continual improvement in the quality and sustainability of the
fraud referral process.

Data Reliability and System Limitations Restrict Criminal
Investigation’s Ability to Accurately Measure Fraud Referral
Evaluation Timeliness
The reliability of data CI used to determine the timeliness of evaluating fraud referrals is
questionable. CI management did not have complete or accurate information available to make
decisions because it used incorrect and/or inappropriate data when analyzing its timeliness
performance measures. In addition, management did not establish goals for its timeliness
measures. Furthermore, CI employees did not always ensure that a criminal investigation code
was timely entered on the account of taxpayers under criminal investigation. Such delays or
omissions of the criminal investigation code could lead to improper contact by other IRS
employees and ultimately compromise CI’s investigations.
It is important that a fraud referral be timely evaluated so that either a criminal investigation can
be initiated or the suspected fraudulent issue can be pursued through the normal examination or
collection process before the statute of limitations expires. Using data in the CIMIS, CI tracks
two fraud referral timeliness performance measures.
        Average Elapsed Days Acted Upon. This is the average length of time it takes CI to
         make the determination to either accept the fraud referral for criminal investigation or
         return it back to the originating operating division to resume processing.
        Percentage Acted Upon in 45 Days or Less. This is the percentage of CI’s fraud
         referral evaluations that meet the timeliness criteria.7
Figure 3 shows that the “Total Number of Fraud Referrals Reviewed” and the “Number of
Fraud Referrals Reviewed Within 45 Days or Less” have increased over the last several years.
However, the “Average Elapsed Days Acted Upon” increased by 1.3 percent in Fiscal
Year 2012, and the “Percentage Acted Upon in 45 Days or Less” decreased by 0.3 percentage
points when compared to Fiscal Year 2011.



7
 IRM 25.1.3.3 (2) (Oct. 30, 2009) states that a determination of whether to accept or reject a fraud referral should be
completed within 30 workdays. A CI representative stated that 30 workdays roughly equates to 45 calendar days,
which is how CI has titled the timeliness performance measure.
                                                                                                              Page 8
                                Actions Are Needed to Accurately Reflect
                         Criminal Investigation’s Fraud Referral Evaluation Period
                             and Improve the Criminal Fraud Referral Process



                         Figure 3: CI Fraud Referral Workload Inventory
                             and Timeliness Performance Measures

                                                                                                        Changes
                                             Fiscal      Fiscal     Fiscal      Fiscal     Fiscal      From Fiscal
                                              Year        Year       Year        Year       Year       Year 2011 to
Measure                                      2008        2009       2010        2011       2012           2012

Workload Inventory Measures
Total Number of Fraud Referrals
                                               625        500         525        558         598            7.2%
Reviewed
Number of Fraud Referrals
                                               294        212         221        231         246            6.5%
Reviewed Within 45 Days or Less
Timeliness Performance
Measures
Percentage Acted Upon Within
                                             47.0%       42.4%      42.1%       41.4%      41.1%           -0.3%
45 Days or Less8
Average Elapsed Days Acted Upon                68          72         72          75         76             1.3%
Source: IRS CI Business Performance Reviews dated September 30, 2010, and September 30, 2012, and
CI provided data on the number of fraud referrals reviewed.

The reliability of data used to determine the timeliness of evaluating fraud
referrals is questionable
To determine if CI procedures for monitoring the timeliness of its fraud referral evaluation
period were operating effectively, we reviewed the initiation date and closing date information
for a sample of 127 fraud referrals. Analysis showed that the data entered in the CIMIS did not
always match the field offices’ source documentation, for example:9
        The initiation dates did not agree10 in 78 (61 percent) of 127 sampled cases. These
         discrepancies ranged from an actual of 49 fewer calendar days than reported to 73 more
         calendar days than reported. When the sample results are projected over the population
         of 1,583 fraud referrals, we estimate that mismatches in the initiation date of greater than
         five calendar days occur in 972 fraud referrals.11 We are 95 percent confident that the

8
  For this item, the percentage figures shown in the “percentage change” column is the difference in the percentage
from one year to the next, not the percentage change from one year to the next.
9
  We used either the Form 2797 or, if a date was missing from the Form 2797, we referred to the field office’s
monitoring log and used that date, if present. If there were no dates on the Form 2797 or the field office’s
monitoring log, we accepted the dates in the CIMIS as correct.
10
   We allowed five calendar days for the time to route and assign the referral to a special agent in the field.
11
   To project the results of our statistical sample, we used a 95 percent confidence level, a 61.4 percent error rate,
and an 8.18 percent precision factor.
                                                                                                               Page 9
                                Actions Are Needed to Accurately Reflect
                         Criminal Investigation’s Fraud Referral Evaluation Period
                             and Improve the Criminal Fraud Referral Process



         number of fraud referrals with errors in the initiation date field of greater than
         five calendar days ranges between 843 and 1,102.
        The closed status date or the Subject Criminal Investigation date in the CIMIS did not
         agree with the source documents disposition date in 97 (76 percent) of 127 sampled
         cases. These discrepancies ranged from an actual of 27 fewer calendar days than
         reported to 504 more calendar days than reported. When the sample results are projected
         over the population of 1,583 fraud referrals, we estimate that mismatches occur in these
         sources of data in 1,208 fraud referrals.12 We are 95 percent confident that the number of
         fraud referrals with errors in the closing date field ranges between 1,095 and 1,321.
The discrepancies between the source documentation and CIMIS information occurred because
there are no controls to ensure that the dates are properly recorded on the Forms 2797 and there
is no reconciliation of the dates on the Forms 2797 to the dates input into the CIMIS. According
to the IRM,13 “Balanced performance measures and corresponding underlying metrics can be
used to identify and understand changes in performance and identify improvement options…. In
general, it is best to ensure the validity and integrity of all measures to ensure decision making is
based on accurate, reliable data.” Office of Management and Budget Circular A-1114 further
emphasizes the importance of accurate measures and states, “In order to assess the progress
towards achievement of performance goals, the performance data must be appropriately accurate
and reliable for the intended use...significant data limitations can lead to bad decisions resulting
in lower performance or inaccurate performance assessments.”
The CIMIS does not contain a data field to accurately capture the end date of the
evaluation period for accepted fraud referrals
Instead, the Subject Criminal Investigation date serves as both the end of the referral evaluation
period and the start of the Subject Criminal Investigation.15 Our analysis of the discrepancies in
the fraud referral disposition dates and the Subject Criminal Investigation dates showed that the
start of the criminal investigation (Subject Criminal Investigation date in the CIMIS) was not
always near the date the decision was made to accept the fraud referral (disposition date).
Using the Subject Criminal Investigation date in the timeliness measure can add considerable
time to the evaluation period. As a result of these inaccuracies and system limitations, CI
management does not have complete or accurate information available to make decisions
affecting the timeliness of the Fraud Referral Program.

12
   To project the results of our statistical sample, we used a 95 percent confidence level, a 76.33 percent error rate,
and a 7.13 percent precision factor.
13
   IRM 1.5.1.12 (1) and IRM 1.5.1.15 (3) (Nov. 1, 2011).
14
   Office of Management and Budget, OMB Circular No. A-11 (Revised), Preparation, Submission, and Execution
of the Budget, Section 260-3 (Aug. 2012).
15
   When a fraud referral is initially received in CI, a primary investigation is started. If the fraud referral is accepted,
it transitions from a primary investigation to a Subject Criminal Investigation.
                                                                                                                  Page 10
                                 Actions Are Needed to Accurately Reflect
                          Criminal Investigation’s Fraud Referral Evaluation Period
                              and Improve the Criminal Fraud Referral Process



CI management did not establish goals for its fraud referral evaluation timeliness
measures
CI management stated that a specific goal for the “Percentage Acted Upon in 45 Days or Less”
performance measure has not been set, but CI strives to evaluate each fraud referral within that
time frame as prescribed in the IRM.16 Management added that the goal for the “Average
Elapsed Days Acted Upon” should be close to the 45-day requirement established in the IRM.
CI also obtains periodic timeliness reports by field office to determine which field offices are not
meeting the time frame and to identify the cause(s).
Management also stated that the two timeliness performance measures are used internally for
case inventory planning, but they are not used for budget or resource allocation purposes.
Nevertheless, the results of these two timeliness performance measures are shared with the IRS
Oversight Board.
Goals or targets are essential to performance measures because they:
          Provide direction to program management and employees about where and how the IRS
           desires to improve in an area.
          Allow meaningful evaluation of progress because it is immediately clear whether the
           targets have been met or little progress has been made.
          Facilitate accountability for the level of results achieved.
However, because these performance measures are reported externally, we believe that the IRS
should establish specific goals to improve the timeliness of the fraud referral evaluation process.
Specifically, the IRS should compare actual results with quantitative, e.g., numeric, targets to
report agency progress in delivering tax administration responsibilities. Establishing goals is
particularly important to both the IRS and its stakeholders. Without these targets, the two
timeliness performance measures do not provide perspective about progress and improvements
in the program. In addition, such information assists IRS management and stakeholders in
making important program decisions.

Recommendations
The Chief, CI, should:
Recommendation 1: Stress the importance of capturing the correct dates on the Forms 2797
and in the system used to track fraud referrals. In addition, the IRM or policy guidance should
include a requirement to reconcile the data on a periodic basis.



16
     IRM 9.4.1.5.1.3.3 (Mar. 30, 2012).
                                                                                            Page 11
                            Actions Are Needed to Accurately Reflect
                     Criminal Investigation’s Fraud Referral Evaluation Period
                         and Improve the Criminal Fraud Referral Process



       Management’s Response: IRS management agreed with this recommendation. On
       July 31, 2012, an updated Form 2797 was released and new policy guidance was
       implemented regarding the reconciliation of fraud referral data. The relevant dates are
       reviewed periodically by various headquarters and field review processes, and each field
       office has appointed a coordinator who is responsible for tracking the fraud referral from
       receipt until final disposition.
Recommendation 2: Modify the CIMIS or develop an alternative method to capture all
relevant dates of the fraud referral evaluation period in order to calculate an accurate timeliness
measure of the fraud referral acceptance process.
       Management’s Response: IRS management agreed with this recommendation. A
       request will be made to modify the CIMIS to capture two dates from the Form 2797: the
       date the referral was received by the field office and the date the referral was accepted or
       declined by the field office. In the interim, CI will issue a memorandum reminding all
       personnel of the CIMIS five-day timeliness guidelines with respect to fraud referrals.
Recommendation 3: Establish quantifiable numeric goals for the “Average Elapsed Days
Acted Upon” and the “Percentage Acted Upon in 45 Days or Less” performance measures.
       Management’s Response: IRS management partially agreed with this
       recommendation. IRS management agreed with the “Average Elapsed Days” portion of
       the recommendation and has quantified these numeric goals in IRM Section 9.4.1.5.1.3.3.
       The field office has 30 business days (45 calendar days) to accept or decline each fraud
       referral. Additionally, a special agent can request an extension(s) to complete the
       evaluation of the fraud referral when appropriate. Written extension requests are noted in
       the CIMIS by the field offices.
       IRS management disagreed with the “Percentage Acted Upon” portion of the
       recommendation. CI’s policy is to address each fraud referral in the 30-business-day
       (45-calendar-day) time frame, excluding extensions. Setting a percentage acted upon
       goal could give the field offices the impression that it is acceptable for a certain
       percentage of fraud referrals to be evaluated in longer time frames, which is not the case.
       Office of Audit Comment: Although IRS management did not agree to set a
       percentage goal for the “Percentage Acted Upon” performance measure, their
       commitment to the policy of addressing each fraud referral within the 30-business-day
       (45-calendar-day) time frame is acceptable and will help to ensure that fraud referrals are
       expeditiously reviewed.




                                                                                             Page 12
                                Actions Are Needed to Accurately Reflect
                         Criminal Investigation’s Fraud Referral Evaluation Period
                             and Improve the Criminal Fraud Referral Process



Improvements Are Needed to Prevent the Potential Compromise of
Criminal Investigations
An analysis of 86 accepted fraud referrals sampled showed that the ****2(e)***************
was not always properly entered on taxpayers’ tax accounts. The IRM17 instructs CI employees
to place an **********2(e)**********, on the taxpayer’s tax account(s) in the Master File once
a fraud referral has been accepted ***2(e)***.18 ************************2(e)***********
********************************************2(e)******************************
*****************************************2(e)*******************************
******************************************2(e)******************************
**********************2(e)********************************.
When a **2(e)** is required, it should remain on the taxpayer’s tax account(s) until either the
taxpayer investigation is ****2(e)****************
****2(e)********************. Special agents do
not have ***********2(e)***********************                A **2(e)** should remain on a
                                                              taxpayer’s tax account(s) until
***2(e)*** onto a taxpayer’s tax account; therefore, a
                                                           either the taxpayer investigation is
request is sent to CI’s *******2(e)************** for       ****************2(e)*******************
input of the ***2(e)****. *****2(e)**************           *****************2(e)****************.
***************************2(e)**************
************************2(e)*****************
*******************2(e)**********************************. If there are any **2(e)**
that should be removed or added, the special agents are expected to resubmit the request to have
the taxpayers’ accounts updated.
From the 86 accepted fraud referrals sampled, seven taxpayers (8 percent) did not have a **2(e)**
properly entered onto their tax accounts.19 When our sample results are projected to the
population of 1,084 accepted fraud referrals, we estimate that a **2(e)** was not properly entered
on 88 taxpayers’ tax accounts during Fiscal Years 2009 through 2011.20 We are 95 percent
confident that the number of taxpayers’ tax accounts on which a **2(e)** was not properly
entered ranges between 37 and 139.



17
   IRM 25.1.3.4 (Oct. 30, 2009).
18
   The **2(e)** requirement does not apply to nontax cases, such as currency transactions or tax return preparer
schemes. Regarding accepted fraud referrals, a **2(e)** is to be entered on tax-related cases only.
19
   Only 82 of the 86 accepted fraud referrals in our sample included tax-related cases for which a **2(e)** was
applicable. In our analysis, we followed recognized statistical practices and treated the four nontax cases as correct;
therefore, those four cases are not factored into the seven exceptions for which no **2(e)** was entered or the 26
exceptions noted later in this section for which it took more than 30 calendar days to enter a **2(e)**.
20
   To project the results of our statistical sample, we used a 95 percent confidence level, an 8.1 percent error rate,
and a 4.68 percent precision factor.
                                                                                                              Page 13
                                Actions Are Needed to Accurately Reflect
                         Criminal Investigation’s Fraud Referral Evaluation Period
                             and Improve the Criminal Fraud Referral Process



For the seven taxpayer tax accounts with no **2(e)**, we requested that CI verify whether the
special agent requested that ****2(e)***. For all but one taxpayer, the special agent had
requested the ***2(e)***; however, CI could not determine why the requests were not
completed by the *****2(e)**************. After our inquiry to CI, the **2(e)*** was added
to the one taxpayer’s tax account that was not initially requested and to three of the other
taxpayers’ tax accounts. However, as of the end of our review, a **2(e)** had still not been
entered on one taxpayer’s tax account, and the remaining two other taxpayers’ tax accounts no
longer needed a **2(e)****************************************.
We also reviewed the tax account histories of these seven taxpayers and found that in six of the
seven taxpayers’ tax accounts, there was account activity between the dates when the Subject
Criminal Investigation was initiated and when the **2(e)** was eventually added to the tax
accounts. For example, some taxpayers’ tax accounts had activities such as lien or levy actions,
notices sent to the taxpayer, or refundable credits and/or refunds generated. Although we were
unable to determine if the account activity might have jeopardized CI’s investigation, the
possibility existed because of the lack of the **2(e)***.
We analyzed the number of days it took to enter the **2(e)** onto the taxpayers’ tax accounts for
our sample. Because there is no timeliness criterion in the IRM for entering the **2(e)**, we
judgmentally considered 30 calendar days as a reasonable time frame for this analysis. Using the
field office disposition date for comparison purposes, we determined that it took more than
30 calendar days to enter the **2(e)** on 26 (30 percent) of the 86 taxpayers’ tax accounts in our
sample. When the sample results are projected to the population of 1,084 accepted fraud
referrals, we estimate that a **2(e)** was not entered within 30 calendar days on 328 taxpayers’
tax accounts.21 We are 95 percent confident that the number of taxpayers’ tax accounts on which
a **2(e)** was not entered within 30 calendar days ranges between 242 and 413.
Although special agents who are assigned fraud referral cases are not the same employees who
enter the **2(e)** on the taxpayers’ tax accounts, ******************2(e)****************
**************************2(e)************************************** showing the
input of the **2(e)**. Results of our analysis indicate that some special agents are not thoroughly
reviewing these reports to verify that a **2(e)** was timely entered onto taxpayers’ tax accounts
in their assigned inventory. Delays in entering, or the omission of, the **2(e)** on the taxpayers’
tax accounts could result in other IRS operating divisions contacting the taxpayers and
potentially jeopardizing CI’s ongoing investigations.




21
  To project the results of our statistical sample, we used a 95 percent confidence level, a 30.23 percent error rate,
and a 7.86 percent precision factor.
                                                                                                               Page 14
                           Actions Are Needed to Accurately Reflect
                    Criminal Investigation’s Fraud Referral Evaluation Period
                        and Improve the Criminal Fraud Referral Process



Recommendations
The Chief, CI, should:
Recommendation 4: Revise the IRM or policy guidance to establish a time criterion to
ensure that a **2(e)** is requested on a subject of an investigation’s tax account(s) within a
reasonable number of calendar days after the decision to accept a fraud referral for an
investigation, i.e., the disposition date.
       Management’s Response: IRS management agreed with this recommendation. On
       August 16, 2012, CI implemented additional control measures that require submission of
       **2(e)** requests to the assigned *****2(e)*************** via an electronic mailbox.
       The Scheme Development Center’s standard operating procedures require **2(e)**
       requests to be processed within **2(e)** of an electronic submission into the mailbox.
       Confirmation of the **2(e)** postings is forwarded back to the field office, notating that
       the account controls are in place. *********2(e)*******************************
       *********************************2(e)*********************************
       *********************************2(e)***********************************
       ******************2(e)**************************.
Recommendation 5: Issue a reminder to all CI personnel of the requirement to review the
********************************2(e)************* the timely input of the **2(e)** to
every taxpayer’s tax account in assigned inventory, as necessary.
       Management’s Response: IRS management agreed with this recommendation. A
       reminder will be sent to the field offices to remind them of the importance of timely
       submission of **2(e)**requests and the necessity to proactively ensure that the **2(e)**
       control was actually posted.




                                                                                           Page 15
                                 Actions Are Needed to Accurately Reflect
                          Criminal Investigation’s Fraud Referral Evaluation Period
                              and Improve the Criminal Fraud Referral Process



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate CI’s role in the IRS National Fraud
Program’s1 efforts to increase the number of viable fraud referrals. In addition, we determined
whether fraud referrals were timely assessed within CI and whether sufficient feedback on
rejected fraud referrals was provided to the IRS operating divisions. To accomplish this
objective, we:
I.         Evaluated CI and Nation Fraud Program efforts to increase the number of viable fraud
           referrals received from the operating divisions.
           A. Reviewed applicable fraud referral guidance in the IRM, standard operating
              procedures, and the IRS’s fraud intranet website.
           B. Interviewed the CI Acting Director, Global Financial Crimes, and the Fraud Referral
              Analyst to determine what actions were taken to emphasize the importance of fraud
              referrals to CI personnel.
           C. Interviewed the Small Business/Self-Employed Division’s National Fraud Program
              Office Chief, Fraud Policy and Operations, and staff to determine what guidance and
              training was available to increase or improve the quality of fraud referrals forwarded
              to CI. We interviewed Large Business and International Division, Tax Exempt and
              Government Entities Division, and Wage and Investment Division fraud liaison
              personnel to determine the process for developing fraud referrals.
           D. Reviewed performance management literature and CI and National Fraud Program
              performance goals.
II.        Determined whether CI has instituted procedures to monitor the effectiveness and
           timeliness of its fraud referral review process.
           A. Reviewed available CI guidance and documentation for monitoring fraud referrals
              received from the operating divisions.
           B. Obtained an extract from the CIMIS of 1,583 fraud referrals that were either accepted
              or rejected by CI during Fiscal Years 2009 through 2011. We consulted with a
              contracted statistician who assisted with the sampling plan and the projections. From
              the CIMIS extract, we selected a stratified random sample with two strata consisting
              of 86 accepted fraud referrals and 41 rejected fraud referrals totaling 127 fraud

1
    See Appendix V for glossary of terms.
                                                                                              Page 16
                                Actions Are Needed to Accurately Reflect
                         Criminal Investigation’s Fraud Referral Evaluation Period
                             and Improve the Criminal Fraud Referral Process



              referrals that were accepted or rejected by CI during Fiscal Years 2009 through 2011.2
              We used a 10 percent expected error rate, a 95 percent confidence level, and a
              ±5 percent precision level. A stratified random sample was taken because we wanted
              to estimate the total number of accepted and rejected fraud referrals that were not
              timely processed from the population of 1,583 fraud referrals that were either
              accepted or rejected by CI during Fiscal Years 2009 through 2011.
              1. Reviewed the fraud referrals that were rejected by CI and were returned to the
                 originating operating division to determine if the declination memorandum was
                 completed and provided sufficient information on why the referral was rejected.
              2. Analyzed the fraud referral documentation to determine the types of tax returns
                 and suspected fraudulent issues that comprised the fraud referrals.
              3. Validated the accuracy of the CIMIS data by comparing Form 2797, Referral
                 Report of Potential Criminal Fraud Cases, fraud referral information input to the
                 CIMIS to data on the Integrated Data Retrieval System.
              4. Analyzed the fraud referral documentation to determine if the decision to
                 accept/reject the fraud referral occurred within 30 workdays of receipt by CI.
              5. Analyzed fraud referrals that were accepted by CI to determine the amount of
                 time that elapsed between the fraud referral acceptance date and when the Subject
                 Criminal Investigation was initiated. In addition, we analyzed taxpayer’s tax
                 account records to determine the amount of time that elapsed between the fraud
                 referral acceptance date and the date the **2(e)** was input on the taxpayer’s tax
                 account.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policies, procedures, and practices for
determining whether fraud referrals are timely processed and monitored. We evaluated these
controls by reviewing source materials, interviewing management, and reviewing a stratified
statistically valid random sample of 127 fraud referrals that were either accepted or rejected by
CI during Fiscal Years 2009 through 2011.


2
  The 127 fraud referrals consisted of 86 accepted fraud referrals, 40 rejected fraud referrals, and one fraud referral
which was incorrectly coded as rejected when it was actually accepted. Following recognized statistical practices,
the one incorrectly coded fraud referral was left in the strata where it was originally placed, which increased the
rejected fraud referrals to 41.
                                                                                                               Page 17
                          Actions Are Needed to Accurately Reflect
                   Criminal Investigation’s Fraud Referral Evaluation Period
                       and Improve the Criminal Fraud Referral Process



                                                                            Appendix II

                Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Augusta R. Cook, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Jones, Director
Bryce Kisler, Director
Doris Hynes, Audit Manager
Gwendolyn Green, Lead Auditor
Todd Anderson, Senior Auditor
Frank O’Connor, Senior Program Analyst




                                                                                    Page 18
                         Actions Are Needed to Accurately Reflect
                  Criminal Investigation’s Fraud Referral Evaluation Period
                      and Improve the Criminal Fraud Referral Process



                                                                          Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Chief, Criminal Investigation SE:CI
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Fraud/Bank Secrecy Act, Small Business/Self-Employed Division SE:S:F/BSA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Criminal Investigation SE:CI
       Commissioner, Small Business/Self-Employed Division SE:S




                                                                                 Page 19
                                Actions Are Needed to Accurately Reflect
                         Criminal Investigation’s Fraud Referral Evaluation Period
                             and Improve the Criminal Fraud Referral Process



                                                                                                     Appendix IV

                                       Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Reliability of Information – Potential; 1,620 fraud referrals for which CI data sources
    contained discrepancies in the initiation date (see page 8).

Methodology Used to Measure the Reported Benefit:
We selected and reviewed a stratified random sample with two strata totaling 127 fraud referrals
made during Fiscal Years 2009 through 2011.1 Our analysis showed discrepancies of more than
five calendar days in the initiation date recorded in the CIMIS and the received date annotated on
the field office source documentation in 78 (61.4 percent)2 of the 127 fraud referrals in our
sample. To calculate the processing timelines of those fraud referrals, CI management relied on
the CIMIS data. However, we found that the supporting field office source documentation
contained inconsistencies for the initiation date. The following factors were used in calculating
the number of fraud referrals estimated.3
        Multiplied the 1,583 fraud referrals in our population by 61.4 percent = 972 fraud
         referrals (324 annually (972/3)) for Fiscal Years 2009 through 2011.
        Projected over five years the number of discrepancies in the fraud referral initiation date
         (324 x 5 = 1,620).




1
  See Appendix V for glossary of terms.
2
  In discussions with a CI representative, we were told that when the fraud referrals are forwarded to the CI field
office, oftentimes these cases are not immediately assigned to a special agent due to delays (e.g., someone on leave,
in training, in court) during the routing process. Therefore, there is generally a short lapse before the fraud referrals
are entered into the CIMIS. Our analysis takes into account a five-calendar-day delay for fraud referral initiation
data to be entered into the CIMIS.
3
  The calculation for the number of discrepancies in fraud referral closing dates will not equal due to rounding.
                                                                                                                Page 20
                            Actions Are Needed to Accurately Reflect
                     Criminal Investigation’s Fraud Referral Evaluation Period
                         and Improve the Criminal Fraud Referral Process



Type and Value of Outcome Measure:
   Reliability of Information – Potential; 2,015 fraud referrals for which CI data sources
    contained discrepancies in the closing date of fraud referrals (see page 8).

Methodology Used to Measure the Reported Benefit:
We selected and reviewed a stratified random sample with two strata totaling 127 fraud referrals
made during Fiscal Years 2009 through 2011. To calculate the processing timelines of the fraud
referrals, CI management relied on the CIMIS data even though some of the supporting field
office source documentation contained inconsistent closing dates. Our analysis showed
discrepancies in the closing dates recorded in the CIMIS and the disposition date from the field
office source documents in 97 (76 percent) of the 127 fraud referrals in our sample. The
following factors were used in calculating the number of fraud referral cases with discrepancies
between the closing dates recorded in the CIMIS and the disposition dates from the field office
source documents.
       The total number of fraud referrals with discrepancies in the overall population was
        calculated by determining the population for each stratum then multiplying the stratum
        population by its unique error rate and adding the results together.
           o The total population of fraud referrals made during Fiscal Years 2009 through
             2011 was 1,583. This was comprised of the accepted stratum of 1,084 accepted
             fraud referrals and the rejected stratum of 499 rejected fraud referrals.
           o Multiplied the accepted stratum population by its error rate (1,084 x .744), which
             resulted in 806 accepted fraud referrals with discrepancies between the closing
             dates recorded in the CIMIS and the disposition dates from the field office source
             documents.
           o Multiplied the rejected stratum population by its error rate (499 x .805), which
             resulted in 402 rejected fraud referrals with discrepancies between the closing
             dates recorded in the CIMIS and the disposition dates from the field office source
             documents.
       Added the accepted stratum results to the rejected stratum results (806 + 402), which
        totaled 1,208 fraud referrals with discrepancies between the closing dates recorded in the
        CIMIS and the disposition dates from the field office source documents. We divided this
        total by three to get the average number of discrepancies per year for the three years
        (Fiscal Years 2009 through 2011) (1,208 / 3 = 403).
       Projected over five years the number of fraud referrals with inconsistent closing dates
        (403 x 5 = 2,015).



                                                                                              Page 21
                                Actions Are Needed to Accurately Reflect
                         Criminal Investigation’s Fraud Referral Evaluation Period
                             and Improve the Criminal Fraud Referral Process



Type and Value of Outcome Measure:
   Reliability of Information – Potential; 145 ***2(e)*** not entered on taxpayers’ tax accounts
    (see page 13).

Methodology Used to Measure the Reported Benefit:
We selected and reviewed a stratified random sample with two strata totaling 127 fraud referrals
made during Fiscal Years 2009 through 2011 (86 accepted fraud referrals and 41 rejected fraud
referrals). Our analysis of the 86 accepted fraud referrals in our sample showed that seven
taxpayers (8.1 percent) did not have a **2(e)** properly entered onto their tax accounts.4 The
following factors were used in calculating the number of fraud referrals estimated.
        Multiplied the 1,084 accepted fraud referrals in our population by its error rate of
         8.14 percent = 88 fraud referrals (29 annually (88/3)) for Fiscal Years 2009 through 2011.
        Projected over five years the number of fraud referrals with no **2(e)** (29 x 5 = 145).




4
  Only 82 of the 86 accepted fraud referrals in our sample included tax-related cases for which a **2(e)** was
applicable. In our analysis, we followed recognized statistical practices and treated the four nontax cases as correct;
therefore, those four cases are not factored into the seven exceptions for which no **2(e)** was entered.
                                                                                                              Page 22
                          Actions Are Needed to Accurately Reflect
                   Criminal Investigation’s Fraud Referral Evaluation Period
                       and Improve the Criminal Fraud Referral Process



                                                                                    Appendix V

                               Glossary of Terms

Term                                Definition
Business Performance Review         A quarterly review by an IRS operating division to report on its
                                    performance measures, business results, employee and
                                    customer satisfaction, and other items of importance.
Compliance Employee                 The staff in the IRS’s Collection and Examination functions
                                    whose mission is to ensure taxpayer compliance through
                                    collecting delinquent taxes and auditing tax returns to
                                    determine correct tax liabilities.
Criminal Investigation Management   A database that tracks the status and progress of criminal
Information System                  investigations and the time expended by special agents.
Disposition Date                    The date CI makes the decision to accept or reject a fraud
                                    referral. This date should generally be within 30 workdays
                                    from receipt of the fraud referral; however, extensions can be
                                    granted.
Fiscal Year                         A 12-consecutive-month period ending on the last day of any
                                    month. The Federal Government’s fiscal year begins on
                                    October 1 and ends on September 30.
Fraud Referral Program              A program designed as a partnership between CI and the IRS
                                    operating divisions to promote fraud awareness and facilitate
                                    fraud training.
Fraud Technical Advisor             A Fraud Technical Advisor serves as a resource person and
                                    liaison to compliance employees in all operating divisions. The
                                    advisor plays a vital role in the development of a potential fraud
                                    case. The advisor is consulted in all cases involving potential
                                    criminal fraud, as well as those cases that have potential for a
                                    civil fraud penalty. The advisor is available to assist in fraud
                                    investigations and offer advice on matters concerning tax fraud
                                    to all operating divisions.
Integrated Data Retrieval System    IRS computer system capable of retrieving or updating stored
                                    information. It works in conjunction with a taxpayer’s account
                                    records.



                                                                                             Page 23
                            Actions Are Needed to Accurately Reflect
                     Criminal Investigation’s Fraud Referral Evaluation Period
                         and Improve the Criminal Fraud Referral Process



Term                               Definition
Internal Revenue Code              The codified collection of United States laws on income, estate
                                   and gift, employment, and excise taxes, plus administrative and
                                   procedural provisions.
Legal Source Income Tax            Investigation of crimes involving legal industries and
Investigation                      occupations and legally earned income.
Master File                        The IRS database that stores various types of taxpayer account
                                   information. This database includes individual, business, and
                                   employee plans and exempt organizations data.
National Fraud Program             Small Business/Self-Employed Division function that provides
                                   oversight and direction for fraud policy and fraud operations
                                   throughout the IRS.
Primary Investigation              An evaluation of an allegation that an individual or entity is in
                                   noncompliance with the Internal Revenue laws and related
                                   financial crimes.
*****2(e)*********                 CI function that identifies and develops **2(e)** for the
                                   purpose of referring and supporting high-impact criminal tax
                                   and related financial investigations. Among other
                                   responsibilities, the *****2(e)******************* are to
                                   maintain controls on all taxpayer accounts under criminal
                                   investigation.
Special Agent                      CI law enforcement employee who investigates potential
                                   criminal violations of the Internal Revenue laws and related
                                   financial crimes.
Statute of Limitations             A type of Federal or State law that restricts the time within
                                   which legal proceedings may be brought.
Strata                             The division of a population into two or more nonoverlapping
                                   subgroups. Each of the subgroups is called a stratum, and two
                                   or more subgroups are called strata.
Subject Criminal Investigation     An investigation of an individual or entity alleged to be in
                                   noncompliance with the laws enforced by the IRS and having
                                   criminal prosecution potential.
Tax Gap                            The estimated difference between the amount of tax that
                                   taxpayers should pay and the amount that is paid voluntarily
                                   and on time.




                                                                                             Page 24
             Actions Are Needed to Accurately Reflect
      Criminal Investigation’s Fraud Referral Evaluation Period
          and Improve the Criminal Fraud Referral Process



                                                      Appendix VI

Management’s Response to the Draft Report




                                                             Page 25
       Actions Are Needed to Accurately Reflect
Criminal Investigation’s Fraud Referral Evaluation Period
    and Improve the Criminal Fraud Referral Process




                                                       Page 26
       Actions Are Needed to Accurately Reflect
Criminal Investigation’s Fraud Referral Evaluation Period
    and Improve the Criminal Fraud Referral Process




                                                       Page 27
                                Actions Are Needed to Accurately Reflect
                         Criminal Investigation’s Fraud Referral Evaluation Period
                             and Improve the Criminal Fraud Referral Process


CORRECTIVE ACTION (S) MONITORING PLAN
The IRS will monitor this action as part of our internal management system of controls.

RECOMMENDATION #3
Establish quantifiable numeric goals for the “Average Elapsed Days Acted Upon” and the “Percentage Acted Upon
in 45 Days or Less” performance measures.

CORRECTIVE ACTION (S)
We agree with the average elapsed days recommendation and have quantified these numeric goals in IRM Section
9.4.1.5.1.3.3. The field office has 30 business days/45 calendar days to accept or decline each fraud referral.
Additionally, a Special Agent can request extension(s) to complete the evaluation of the fraud referral when
appropriate. Written extension requests are noted in CIMIS by the field offices.

We disagree with the percentage acted upon recommendation. Criminal Investigation’s policy is to address each
fraud referral in the 30 business/45 calendar day timeframe, excluding extensions. Setting a percentage acted upon
goal could give the field offices the impression that it is acceptable for a certain percentage of fraud referrals to be
evaluated in longer time frames, which is not the case.

IMPLEMENTATION DATE
March 20, 2012

RESPONSIBLE OFFICIAL (S)
No applicable.

CORRECTIVE ACTION (S) MONITORING PLAN
Not applicable.

RECOMMENDATION #4
Revise the IRM or policy guidance to establish a time criterion to ensure that a ***2(e)**** is requested on a
subject of an investigation’s tax account(s) within a reasonable number of calendar days after the decision to accept
a fraud referral for an investigation, i.e., the disposition date.

CORRECTIVE ACTION (S)
We agree with this recommendation. On August 16, 2012, CI implemented additional control measures that require
submission of ***2(e)*** requests to the assigned *********2(e)************ via an electronic mailbox. The
**2(e)** standard operating procedures require **2(e)** requests to be processed within **2(e)** of an electronic
submission into the mailbox. Confirmation, of the **2(e)** , postings are forwarded back to the field office,
notating that the account controls are in place. *************2(e)*******************
**************************************2(e)****************************************************
****************2(e)*****************************

IMPLEMENTATION DATE
August 16, 2012




                                                                                                                Page 28
                               Actions Are Needed to Accurately Reflect
                        Criminal Investigation’s Fraud Referral Evaluation Period
                            and Improve the Criminal Fraud Referral Process




RESPONSIBLE OFFICIAL (S)
Not applicable.

CORRECTIVE ACTION (S) MONITORING PLAN
Not applicable.

RECOMMENDATION #5
Issue a reminder to all CI personnel of the requirement to review the ***************2(e)****
***************2(e)*********** the timely input of the **2(e)** to every taxpayer’s tax account in assigned
inventory, as necessary.

CORRECTIVE ACTION (S)
We agree with this recommendation. A reminder will be sent out to the field offices to remind them of the
importance of timely submission of **2(e)** requests and the necessity to proactively ensure the **2(e)** control
was actually posted.

IMPLEMENTATION DATE
July 15, 2013

RESPONSIBLE OFFICIAL (S)
Director, Operations, Policy & Support

CORRECTIVE ACTION (S) MONITORING PLAN
The IRS will continue to monitor this action as part of our current review process.




                                                                                                          Page 29
